No. ___-_______

IN THE
SUPREME COURT OF THE UNITED STATES

JOHN TRAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I, William W. Fick, do swear or declare that on this 1st day of October, 2020, as
required by Supreme Court Rule 29, I have caused to be served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF
CERTIORARI, and this CERTIFICATE on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Solicitor General of the United States
U.S. Department of Justice, Room 5614
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 1, 2020.

________________________
William W. Fick

